 

IN THE SUPREME COURT OF THE UNITED STATES

 

STEVEN JONES
Petitioner

Vv.

UNITED STATES OF AMERICA
Respondent

 

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

 

The Petitioner, Steven Jones, by his undersigned federal public defender, and.
pursuant to 18 U.S.C. ยง 3006A and Rule 39.1 of this Court, respectfully requests leave
to proceed in forma pauperis before this Court, and to file the attached Petition For
Writ of Certiorari to the United States Court of Appeals for the Eleventh Circuit
without prepayment of filing fees and costs.

In support of this motion, Petitioner states that he was found indigent by both
the district court and the Eleventh Circuit. He was represented by the Southern
District of Alabama Federal Public Defender, pursuant to 18 U.S.C. ยง 3006A, in the
lower courts.

Respectfully Submitted, the 7th day of January 2021.

pea Kemp, Esq. H

Southern District of Alabama
Federal Defenders Organization, Inc.
11 North Water Street, Suite 11290
Mobile, Alabama 36602

Tel: (251) 433-0910

Fax: (251) 433-0686

Email: Patricia_Kemp@fd.org
Counsel for Petitioner
